               TIRNO-99-D-0005, Supplemental Report on
              Compliance With Requirements Applicable to
              Major Programs and on Internal Control Over
              Compliance in Accordance With the Office of
                Management and Budget Circular A-133,
                           Fiscal Year 2002

                                 August 2004

                     Reference Number: 2004-1C-140




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           August 25, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-99-D-0005, Supplemental Report on Compliance With
                              Requirements Applicable to Major Programs and on Internal
                              Control Over Compliance in Accordance With the Office of
                              Management and Budget Circular A-133, Fiscal Year 2002
                              (Audit #20041C0240)


       The Defense Contract Audit Agency (DCAA) audited the contractor’s compliance with
       requirements described in the Office of Management and Budget (OMB) Circular A-133
       Compliance Supplement that are applicable to its major Federal Government programs.
       The DCAA also audited the contractor’s January 8, 2003, certified final indirect cost rate
       proposal and related books and records for reimbursement of Fiscal Year 2002 incurred
       costs. The purpose of the audit was to determine the allowability and allocability of
       direct and indirect costs and form the basis for negotiated indirect cost rates for the
       period ended October 6, 2002.
       The DCAA indicated that this supplemental report replaces the original report in its
       entirety. The OMB Circular A-133 requires report qualifications be treated as an audit
       finding. According to the DCAA, the original audit report did not include an audit finding
       for the qualification. Therefore, this supplemental report addresses the qualification as
       an audit finding.
       The DCAA questioned $30,202 of overhead and General and Administrative (G&A)
       costs. The Internal Revenue Service’s (IRS) portion of the questioned costs is $1,069.
       In addition, the DCAA reallocated $217,014 of corporate G&A expenses to the
       sponsors. This resulted in an increased allocation to the IRS of $176,554.
                                            2




The audit of direct costs disclosed no exceptions at this time. Claimed direct costs are
provisionally approved pending final acceptance.
The DCAA stated that another Federal Government audit organization has audit
responsibility for the direct costs claimed on programs identified as Special Projects in
the contractor’s “Supplemental Schedule of Expenditures of Federal Government
Awards.” The DCAA contacted this organization and discussed the requirements of
OMB Circular A-133. However, the DCAA did not have access to the organization’s
workpapers. Therefore, the DCAA was unable to perform the procedures necessary for
relying upon the work performed by others. The DCAA was unable to satisfy itself as to
the contractor’s compliance with the A-133 requirements or the allowability of the direct
costs. Therefore, the DCAA qualified the results of this audit accordingly.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
